gl-,,-5452

FiLED
OFFICE OF THE CLERK
SUPREME COURT, U.S.

In The
SUPREME COURT OF THE UNITED STATES
October Term, 2021

In m Elliot Joseph.,
Petitioner
Versus
Tim Hooper, Warden
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEAL, FIFTH CIRCUIT

Respectfully Submitted By:

Elliot Joseph. #________
Louisiana State Penitentiary
Angola, Louisiana 70712

OTTFSTTONS PttFSff.NTff.Tt FOR ttff VTVW

I
Whether the lower courts incorrectly found petitioner’s petition for writ of habeas
corpus failed to demonstrate a substantial showing of the denial of a constitutional
right?
II.
Whether the Federal District Court resolved petitioner’s claim’s in a manner that
was blatantly contrary too or involved an unreasonable application of clearly
established Federal Law as set forth by this Honorable Court in Miranda v.
Arizona and Strickland v. Washington a violation of the petitioner’s equal
protection and due process rights pursuant to the 5th, 6th, and 14th Amendments,
which, in effect, denied him due process and equal protection of the law to have a
fair adjudication of his claims in Federal Court?
III.
Whether* the District Court lost jurisdiction and erroneously determined that
petitioner was untimely and made no Rulings on the merits of his 28 U.S.C. §
2254 petition? The COA determination under § 2253© requires an overview of
the claims in the habeas petition and a general assessment of the merits. The
threshold inquiry does not require full consideration of the factual basis or legal
basis adduced in support of the claims. In fact, the statute forbids it. When a court
of appeals side steps this process by first deciding the merits of the appeal, and
then justifying its denial of COA based on its adjudication of the actual merits, it
is in essence deciding an appeal without jurisdiction.

v

PARTIES TO THE PROCFEmNOS TN THE COURTS RF.IOW

PETITIONER:
1.

Elliot Joseph. #328928
Ash-4
Louisiana State Penitentiary
Angola, Louisiana 70712

RESPONDENT:
2.

Tim Hooper, Warden
Louisiana State Penitentiary
Angola, LA 70712

3.

Hillar Moore, III
East Baton Rouge Parish District Attorney
222 ST. LOUIS STREET
Baton Rouge, LA. 70802

There are no parties to this action within the scope of Supreme Court Rule 29.1.

vi

Table of Contents
Opinions Delivered In The Court Below...............

2

Jurisdiction............................................................ .

3

Constitutional And Statutory Provisions Involved.

4444444444444444444444444444444444444444444444444444444444444444444444

...3

Statement Of The Case........ .................................

3

Reasons For Granting The Petition................. .....

5

Direct Appeal

..6

44444444444444444444444444444

Assignment Of Error #1.............. .........................

6

Elliot Joseph's Right To Capital Qualified Counsel................................................

9

Denial Of Mr. Joseph’s Requests To Represent Himself........................................

13

Assignment Of Error #2..........................................................................................

16

The Trial Judge Erred In Denying The Motion To Suppress..................................

16

Assignment Of Error #3......................... ................................................................

20

The Trial Judge Erred In Failing To Obtain A Joint Waiver Of Jury Sequestration

20

Summary

..22

44444444444444444444444444444444444444444

Post Conviction Relief claims...........................................................................
Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #1.

23
44444444444444444444444444 4

..23

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #2.

.............23

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #3.

23

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #4.

24

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #5.

24

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #6.

24

Ineffective Counsel [VIA] Deficient Unreasonable Performances Claims #7.

24

Arbitrary Abuse Of Discretion Claim #1..

25

Arbitrary Abuse Of Discretion Claim #2..

4444444444444444444444444444444444444444444444444444*4444444444

..25

Arbitrary Abuse Of Discretion Claim #3.

.......25

Arbitrary Abuse Of Discretion Claim #4.

25

Argument In Claim #L................... .

26

Argument In Claim #2............................

26

Argument In Claim #3............................

27
Vll

DcfideflUterformanee;

tt2&

Argument In Claim #4

..........28

Argument In Claim #5. *«**»*•«*»**»»«•«**»*»»»*»»»«***«•**«««»*«*****+****«**

.29

Argument In Claim #6.

30

Argument In Claim #7.

30

Arbitrary Abuse Argument As To Claim #1

32

Arbitrary Abuse Argument As To Claim #2

.32

Escobedo Rule..

■ AAAAAAAA- AAAAAAAAAA.

Arbitrary Abuse Argument As To Claim #3.

AAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAAA.

.4144444444444444444444444444444444

....33

44 44 44 4i4S444444444 4il44441t441t4SlllS4 44 4i44i444444444m4i4 44i4 44«4i44 44>4414 44

.34

Arbitrary Abuse Argument As To Claim #4.

.35

Summary....................

36

Conclusion*.................

37

Certificate Of Service.

.....39

44444444444444144444444.

Index of Appendices
“A”

Judgment denying COA on 3/8/2021 issued as mandate

4/19/21

“B”

Motion for Reconsideration of COA denied

4/9/2021

“C”

“Notice” Rehearing was being treated as a reconsideration -

3/25/2021

“D”

Petition for Panel Rehearing on COA

3/21/2021

“E”

Judgment denying COA

3/8/2021

Motion to Reinstate Appeal Granted

3/3/2020

“G”

Motion to Reinstate Appeal

2/??/20

“IT’

Dismissal for want of prosecution/failed to timely file COA-

2/21/2021

Memonandum and Request for COA, 5* Cir.

2/12/2020

“J”

Dismissal of Habeas Coipus with prejudice (M.D. La)

7/22/2019

“K”

Ruling and Order / Dismissal of Habeas

7/22/2019
VUl

Tmverse4Q-Stnte^rA&swa^

W-l-3/-20-14-lggal-pi:Qgr
sent on 9/16/16

«M”

Answer to Petition for Writ of Habeas Corpus (State)

8/25/2016

“N”

Order directing DA, to file response / procedural objects.

“O”

Federal habeas filed with Middle Dist. Of La.

5/06/2016

“P”

Denial PCR Supervisory Writ by La. Supreme Court

3/24/2016

“Q”

Request for Rehearing denied by 1st Cir.

12/23/2014

“R”

Denied of Supervisory Writ by 1st Cir.

11/20/2014

“S”

Writ denied on the Showing made (failure to attach) 1st Cir.-

8/12/2014

Order denying PCR by 19th JDC

4/01/2014

“U”

Order for State to respond to claims 3,4,5,6, & 7

3/01/2013

“V”

Commissioner's Report and Recommendation

4/29/2013

“W”

Order relative to Supplemental Brief

12/03/2012

“X”

Order directing District Attorney to respond to PCR

2/05/2009

Handwritten Application for PCR

?

Reconsideration denied by La Supreme Ct. (Direct Appeal)-

1/25/2008

“Z”

“AA” Denial of Certiorari before La Supreme Court

-

7/14/2016

10/05/2007

IX

TABLE-QF-AUTHQRIUE&

United States Constitution
Fifth Amendment
3
3
Sixth Amendment.
3
Sixth Amendment.
3
Fourteenth Amendment. ********************
3
Fourteenth Amendment.
Fifth Amendment
5
Sixth Am endm ent........
5
Fourteenth Amendment
5
6
Sixth Amendment.
Sixth Amendment, ************************************************************************************************************************* 13
Sixth Amendment.
14
Fifth Amendment22
Sixth Amendment.
23
Sixth Am endm ent.
25
Sixth Am endment,
26
Fourteenth Amendment
28
32
Sixth Amendment.
Sixth Amendment.
37
>4444444444444444444444444444441

444444444444444

444«r4«4 44»4M»t4t4444 4

Federal Statutes
28 U.S.C. § 2241.
28U.S.C.§ 2254.
Rule 20 of the Rules of the Supreme Court
§2253(c)(.l)
28 U.S.C. § 1254(1).
Supreme Court Rule 31
28 U.S.C. § 2254.
28 U.S.C. § 2254(d)(1) and (2)....

•44444444444444414444'

I|14144444444444144414441441444414444444144144414l4444t4144ll41444i444144114411t4lf4444l

44444441444 ********* •♦♦♦♦♦♦♦•♦♦

4444444444 »4*<44444444444444444444444

***********

41ttt444444411444444441444444444441414t

************* *********************** ***********************

4444444444444444444I4444441444444444444444444444444144414444444441444414444444441.

8
8

8
3
3
10
37
38

Federal Cases
United States v. Laura, 607 F.2d 52, 55-56 (3rd Cir. 1979).
Faretta v. California, 422 U.S. 806, 820 (1975).
Flanagan v. United States, 465 U.S. 259, 268 (1984).....'.....
United States v. Rankin, 779 F.2d 956,960 (3rd Cir. 1986)
McKaskle v. Wiggins, 465 U.S. 168,177 n. 8 (1984). ************
Gideon v. Wainwright, 372 U.S. 335, 83 S.Ct. 792, 9 L.Ed.2d 799 (1963)
Faretta v, California, 422 U.S. 806,834 (1975).
United States v. Barnett, 376 U.S. 681, 715 (1964)....................................
United States v, Gonzalez-Lopez, 2005 U.S. Briefs 352,15 (U.S. S.Ct. Briefs 2006).
Faretta v. California, 422 U.S. 806, 95 S.Ct. 2525,45 L.Ed.2d 562 (1975)
• * * * ♦ * ♦ •* * * ♦ * ♦ •

4444444444444444444444444444444444444444444444444444

11
11
12
12
12
12
13
13
13
14

X

...---- Farett-ar-supraT-at 814-815.....
44
United States v. Kimmel, 672 R2d 720 (9th Cte 1982).
,14
Johnson v. Zeibst, 304U.S. 458, 464, 58 S.Ct. 1019,1023, 82 L.Ed. 1461 (1938)
,15
Missouri v, Seibert, 159 L,Ed.2d 643,124 S.Ct 2601 (2004)
,19
Cuyler v. Sullivan, 466 U.S. 335, 344,100 S.Ct. 1708,1716 (1980).........
.26
Ramseyerv. Wood, 64 R3d 1432 (9th Cir. 1995).
..26
Hyman v. Aiken, 824 R2d 1405 (4th Cir. 1987)..
27
28
Moore v. Johnson, 194 R3d 586 (5th Cir 1999)...
Veia v, Estell, 708 R2d 954, 963-964 (5th Cir. 1983)
.31
Washington v. Estell, 648 R2d 276 (5th Cir. 1981)...
31
Lyons v. McCotter, 770 R2d 529 (5th Cir. 1985)......
......31
31
Gray v. Lyons, 6 R3d 265 (5th Cir. 1992)..................
Strickland v. Washington, 466 U.S. 668, 685,104 S.Ct. 2052, 2064,80 L.Ed.2d 674 (1984).... 31
»♦»»****«"»**♦*•

State Constitution
La. Const. Article 1, Section 13.
Article I § 2,13 and 16 of the Louisiana Constitution of 1974.

........12
,.28

State Statutes
....18
18
21
........... 21
,21
,21

La. R.S. 15:45L.... .
La. C.Cr.P. Art. 703(D)..
La.C.Cr.P. Article 791....
La.C.Cr.P. Article 791 B.
Act 1172
Act 1277,
La. R.S. 14:30.

„„37

State Cases
4
State of Louisiana v. Elliot Joseph, 05/KA/2169, (La. App. 1 Cir. 12/29/06)
..4
State v. Elliot Joseph 14/KW/1382 (La. App. 1 Cir. 11/20/14.
State v. Gradley, 745 So.2d 1160 (La. 1998)
...11
State v. Citizen, 04-1841 (La. 4/1/05), 898 So.2d 325.......
12
....13
State v. Scott, 2004-1312 (La. 1/19/06), 921 So.2d 904.....
15
State v. Harper, 381 So.2d468 (La. 1980).........................
State v. Dupre, 500 So.2d873 (La. App. 1st Cir. 1986), writ denied, 505 So.2d55 (La. 1987)., 15
18
State v. Menne, 380 So.2d 14 (La. 1980)..........
State v. Dimer, 37162 (La. App. 2nd Cir. 10/29/03), 859 So.2d 911, writ denied, 2003-3400 (La,
.19
3/26/04), 871 So.2d 347.
21
State v. Porter, 99-1722 (La. App. 3rd Cir. 5/3/00), 761 So.2d 115.
,...34
State v. Robinson, 384 So.2d 332 (La. 1980)
,.34
State v. Collier, supra, at 500. (384 U.S. 436,444 (1966)
**«*»***»*4-« 4-4-*•***« *«**»**« 4*44*444 **********

.*44****«4*4***4**4444«*4*****

***4**4********4**«4*4«4*«*4

444«444it4«4*44

44414444444444444444444444444444444444444444444444444444444

Yl

In the
SUPREME COURT OF THE UNITED STATES
October Term, 2021
In re Elliot Joseph.,
Petitioner
Versus
Tim Hooper, Warden
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEAL, FIFTH CIRCUIT

On Petition for Writ of Certiorari from the Fifth Circuit Court ofAppeals.
Petitioner, Elliot Joseph., pursuant to 28 U.S.C. § 2241, 28 U.S.C. § 2254, and Rule 20 of
the Rules of the Supreme Court, respectfully invokes this Court’s original jurisdiction, and prays
tliat it issue a writ of habeas corpus directed to Tim Hooper, Warden, who presently has custody
of Elliot Joseph., pursuant to a judgment of a court of the State of Louisiana As shown below,
this writ would be in aid of die Court’s appellate jurisdiction and would permit the Court to
address the important questions of Federal Law presented herein and to resolve the conflict
among the Federal Courts of Appeal on this question. Petitioner, Elliot Joseph, further show that
adequate relief camot be obtained in any other form, or from any other court.

17 •

Appendix. A,

Ruling Fifth Circuit Court of Appeals:

Court:

United States Court of Appeals
Fifth Circuit
JlzJOLaZ_________

Docket Number:
Date Decided:
U.S. Cir. Judge:
Disposition:

.Hon. C&sl
Denied

Appendix B,

Ruling & Federal Memorandum Order

Court:
Docket Number:
Date Decided:
Magistrate:
Judge:
Disposition:

Middle District of Louisiana,
USDC NO. !(,-ZU~6fiJ-AiA

Appendix C,

Ruling

Court:

Supreme, State of Louisiana
State of Louisiana
oiO/sr~kN-/o/A

d«*;J /<?

<3LO 3-/(fikuc/UA

A/tm, Ert'st tkJi/s/es -jOoatAieX'
dstciu.
M
Denied

dr JezcAzsets.

Docket. Number:
Date Decided:
Justices:
Disposition:

Denied Without Written Reasons

Appendix B,

Ruling, Post Conviction Relief:

Apellate Court:

First Circuit Court of Appeal
State of Louisiana

ogy, ^2 0/6,

Ct. App.. No:
£OiQ~ku/-/ igg
Date Denial of PCR:
Q-O/y
Judge:
iTAf A . fa/ir
Disposition:
Denied

2

__Appendix D. .EUmt Joseph v Tiaivyl Vmmay. Ruling. Post-Conviction Relief:
District Court:

19th Judicial District Court
State of Louisiana
Parish of East Baton Rouge
Dis. Ct. Doc. No:
0z~ Of- OWO.________
Date Denial of PCR: /fan/ A ■=£<?/V________
/vbn, Ltju/f
jQ/iu ffi*/
Judge:
Disposition:
Denied
JURISDICTION
The United States Court of Appeal, Fifth Circuit, denied my Application for a
Certificate of Appealability on 3 / $

pursuant §2253(c)(l).

No petition for

rehearing was filed in this case. Accordingly, the jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution provides, in pertinent part:
No person shall ... be deprived of life, liberty,
or property, without due process of law ...
The Sixth Amendment to the LTnited States Constitution, provides, in pertinent part:
In ail criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial...
The Fourteenth Amendment to the United States Constitution, provides, in pertinent part:
. . . nor shall any State deprive any person of
life, liberty, or property, without due process of
law...
STATEMENT OF THE CASE
On /kiucA 7,20Qf, petitioner Elliot Joseph was indicted for the Istt degree murder of
3

-kr-3-r

r-Oa-

On April 27, 2005, a twelve person jury found petitioner guilty as charged. On May 2, 2005, the
trial court imposed the mandatory life sentence at herd labor without benefits.
Petitioner filed a motion for a new trial, which the trial court denied

Thereafter,

petitioner moved for an appeal which the trial court granted.
In his application for Post Conviction Relief, petitioner raised two claims:
(1) Insufficiency of the Evidence
(2) Ineffective assistance of counsel
The First Circuit Court of Appeal denied the relief sought. State of Louisiana v. Elliot
Joseph, 05/KA/2169, (La. App. 1 Cir. 12/29/06) (unpublished), conviction and sentence affirmed
as imposed.
Petitioner filed his first PCR, on or about January 13, 2009. On December 3, 2012, the
Court granted the State's procedural objections in part, and denied in part Commissioner's
recommendation. 5/23/12; Court Order 12/3/12.
The state was notified to answer PCR claims 3, 4, 5, 6, and 7, on March 6, 2013. The
state complied and submitted answers to said claims on April 4, 2013. On April 29, 2013, the
Commissioner recommended dismissal of petitioner's remaining claims. Consequently, on April
1, 2014, petitioner's PCR was dismissed
Petitioner sought writs to the First Circuit Court of Appeal on April 24, 2014. Petitioner
was required to made some corrections to his pleading an given until October 6, 2014 to do so.
Petitioner filed anew writ on September 18, 2014. Writs were denied by the Court on November
20, 2014. State v. Elliot Joseph 14/KW/1382 (La App. 1 Cir. 11/20/14. (unpublished) Petitioner
sought rehearing befor e the 1st Circuit, the said rehearing was denied as “not considered” on
4

12/-23/14—Supervi snqLWrits. were taken toihe State Supreme Court which ultimately denied the
same on 12/7/2015 as untimely.
Petitioner filed his federal habeas on or about May 5, 2016, which ultimately gives rise to
the claims currently before this Honorable Court.
Wherefore petitioner in this matter respectfully prays that this court, in the interest of
justice and plain fairness entertain petitioner’s application of Habeas Corpus Relief and
Memorandum in Support.
Petitioner delivered his Petition for Writ of Habeas Corpus to prison officials for
mailing on, alleging several claims for relief:
I. Petitioner was denied his Fifth Amendment right when he was questioned
first and gave Mirandawarnings only after being interrogated;
2. Petitioner was denied his Sixth Amendment right to counsel when trial court
denied him the right to counsel of choice; and denied him the right to
qualified counsel; and
3. Petitioner was denied his Sixth and Fourteenth Amendment right when the
trial court did not allow' the jury take there time to deliberate. Trial court
forced the jury to come up with a verdict or he will have to sequester them
and put them in. a hotel, forcing them to find Defendant guilty.
Magistrate Judge 1,,*

altered a report and recommendation

denying Petitioner's Petition for Habeas Corpus and urged the following:
REASONS FOR GRANTING THE PETITION
The petitioner contends that the lower courts have grossly departed from proper
constitutional proceedings by ruling that petitioner’s had no established himself entitled to the
relief sought as prescribed by the Constitution of the United States.

5

mmcr-APPEAL
ASSIGNMENT OF ERROR #1
The Trial Judge Interfered With Elliot Joseph's Sixth
Amendment Right To Counsel. He Denied Elliot Joseph
The Right To Counsel Of His Choice, Denied Him The
Right To Have Qualified Appointed Counsel Despite His
Indigency And Denied Him The Represent Himself,
Compelling Him To Go To Trial With Unqualified
Counsel.
When Mr. Joseph first appeared in court following Ms indictment, h declared
himself to be indigent. After questioning Mr. Joseph, Judge Daniel agreed and appointed
the Office of the Public Defender to represent him. (R.pp. 1-2).
However, despite the fact that Mr. Joseph was charged with a capital offense and
despite the fact that it was anticipated that the State would seek the death penalty, Mr.
Joseph was appointed a single counsel who admitted later during the proceedings that he
was qualified only to be “second chair” in a capital case. (R.pp. 70, G57). Mr. Joseph was
never appointed a “first chair” capital counsel.
Several weeks after being appointed, Mr. Joiner began filing preliminary
pleadings, including several related to the death penalty, despite the fact that the State had
not filed written notice that it intended to seek the death penally. (R.pp. 57-77).
On June 7, 2001, Mr. John Martin, an attorney for less than two years at the time
(admitted to practice 10/1999), filed a motion asking to be allowed to enroll as co-

counsel with Mr, Joiner, to sit as second chair with Mr. Joiner's permission. (R.p. 78).
On July 1, 2001, R. Neal Wilkinson, retained by Mr. Joseph's family, also filed a
6

motion to enroll as counsel of record
On August 24, 2001, Judge Daniel named Mr. Wilkinson as counsel, John Martin
as co-counsel and ordered the Office of the Public Defender, over an objection by the
Chief Public Defender, to provide assistance in the form of resources and investigative
services. Mr. Joiner was permitted to withdraw.
A third counsel (Donald Dobbins) filed amotion to enroll on September 21, 2001,
'that was quickly followed by amotion to withdraw. (R.pp. 141-142).
Mr. Joseph and Mr. Wilkerson had difficulty communicating and Mr. Wilkerson
ultimately moved to withdraw from the case on January 4, 2002, the same day that the
State filed formal notice that it intended to seek the death penalty. (R.pp. 155,160).
Mr. Martin, the attorney who had enrolled as second chair, was left on the record
as lead counsel in the now capital case. Mr. Joiner, also a second chair, was reappointed.
(R.pp. 6-7). By this time, Mr. Martin had moved from the Baton Rouge area and was
practicing law in Marrero.
In April 2003, Mr. Joseph began filing motion on his own behalf, the first seeking
funds to hire various experts, requesting suppression of the statements and dismissal of
the prosecution and asking for discovery. (R.pp. 210-233).
Mr. Joseph filed a second set of pleading in June. (R.pp. 240-246). In addition, the
minutes reflect that, in addition to the motions appearing in the record, there was a
motion from Elliot Joseph to act as co-counsel. That specific pleading, however, is not in
the record for review. (R.p. 6). On July 24, 2003, Judge Daniel ordered both sides to
7

submit memoranda on the issue of Mr, Joseph's with-to-act-as co-counsel
The Court took up the issue of self-representation on October 28, 2003. According
to the minutes, the transcripts was not provided, Judge Daniel explained that Mr. Joseph
did not have the right to be both represented and representative. At that time, Mr. Joseph
asked that his “retained” counsel be relieved. Judge Daniel ordered the counsel to file a
written motion to withdraw and re-set the matter. (R.pp. 13-14).
Mr. Martin, and Mr. Bryan1 filed a motion to withdraw containing a memorandum
on the Mr. Joseph's right to have counsel of his choice. (R.pp. 271-273). Within the
motion to withdraw/memorandum, counsel noted that Elliot was not cooperating with
counsel and had failed to pay them for their services. (R.p. 271). The motion was filed on
October 30, 2003. The record reflects that on the date, Mr. Joseph withdrew his request
and asked to maintain his counsel. The transcript of the hearing is also not contained in
the record.
But by November 23, 2003, Mr. Joseph had again asked to represent himself, but
not waive appointed counsel. I-Ie implied he had not retained any attorneys and owed no
money on any contract. (R.p. 274).
Judge Daniel set the motion for December 18, 2003, a year and a half before the
ultimate trial date. At the hearing, Elliot told the court that “I am not waiving my rights,
but I wish to represent myself.”
Despite the number of times Mr. Joseph state he wanted to represent himself or
According to Infarniation received from Mr, Bryan, he knew Mr. Martin from law school and had
volunteered to help him with research, as an unpaid assistant. He was released from the case by Judge
Daniel when he obtained employment with the Attorney General's Office.
8

^aye-access tQ

r-nnnspl, rhp jnrlgp

;‘s response as an equivocal rather

than unequivocal request to represent himself, holding that Mr. Joseph's request were in
an effort to manipulate the system. (R.p. 617). The judge then denied all of Mr. Joseph's
pro se pleadings. Elliot took offense at the judge's remarks and a heated discussion
ensued during which Mr. Joseph unequivocally fired the lawyers his family had never
paid. (R.pp. 617-620).
Mr. Joiner of the public Defender's Office also again tried to withdraw, but
following an unrecorded status conference formally withdrew the motion. (R.p. 18).
Mr. Joseph filed more pleadings that were denied without hearing. He sought writs
to have the trial court act on them. (R.pp. 304-321, 333).
By 2004, Mr. Martin was practicing in Slidell. (R.p. 290). By the time of the trial
in 2005, he would be practicing outside of Atlanta.
On the second day of trial, Mr. Joseph again tried to remove Mr. Martin from the
case indicating a lack of confidence and trust in him as the lead attorney. (R.pp. 655-656).
Once again, Mr. Joseph asked to have Mr. Joiner act as lead counsel or again to represent
himself. Interestingly, Judge Daniel did not direct any inquiry to Mr. Martin. Rather, he
spoke solely to Mr. Joiner. When it became evident that Mr. Joiner was not qualified as
"first chair” in a capital case, Judge Daniel denied both requests. The judge again found
Mr. Joseph’s requests to act as his own counsel equivocal and informed him that he could
be gagged if he made outbursts in court. (R.pp. 655-661).
Elliot Joseph's Right To Capital Qualified Counsel
9

■As-evldeBced-from the pleadings, it was-aaliri.patBd.fram the-inception nf this rasp
that the State would seek the death penalty.
Mr. Joseph was declared indigent and remained indigent throughout the
proceedings. He is indigent on appeal. While his family sought representation for Mr.
Joseph from various counsels, they paid none of them, including John Martin. Judge
Daniel refused to release Mr. Martin despite his requests and his frequent moves, each
further from the Baton Rouge area.
Supreme Court Rule 31 defining Indigent Defender Standards reads pertinently:
(1)
Capital Litigation. - In all capital cases, the
following standards shall be applicable to the defense of
indigents:
(a) In any capital case in which a defendant is found to
be indigent, the court shall appoint no less than two
attorneys to represent the defendant. At least two of the
appointed attorneys must be certified as qualified to serve
in capita] cases as provided below. The Court shall
designate one of the appointed attorneys to be lead counsel,
the other(s) as associate counsel. The court shall only
designate as lead and associate counsel those attorneys who
have either been previously certified by the Louisiana
Indigent Defender Board and whose certification is still in
good standing or those attorneys who, after December 31,
1997, may be certified by the district court judge handling the
case pursuant to Paragraph (b) of Subsection 1 of this
Section.... [emphasis added]
Admittedly, the Rule “shall not be construed to confer substantive or procedural
rights in favor of any accused beyond those rights recognized or granted by the United
States Constitution, the Louisiana Constitution, the laws of the state, and the
10

!

jurispmdence of the-courts. [and]

shall-not-form a basis for a procedural nr substantive

attack in any case or proceeding pending or instituted in the Louisiana criminal justice
system on or after the date this Rule is promulgated.5’ See also State v. Gradley, 745
So.2d 1160 (La. 1998).
Nevertheless, the Rule does at least demonstrate that the quality of representation
that Elliot Joseph, an indigent, was compelled by the trial court to maintain against his
express wishes, was not the representation he would have been entitled to had he been
allowed to dismiss the “retained” attorney whom he had not retained, whom he did not
want, who had not been paid, who had asked to withdraw from the case, who had
participated only minimally in the trial of the pretrial motions, who was not capital
qualified and who had only enrolled as “second seat.” See motions, pp. 78, 271,
transcripts of 1/10/03,11/4/03,11/7/03 and 12/18/03.
The right to counsel of choice is a recognition that attorneys “are not fungible, as
are eggs, apples and oranges” and because these differences will impact on a defendant's
constitutional rights, he must be allowed to “chose an individual in whom he has
confidence.” United States v* Laura, 607 F.2d 52, 55-56 (3rd Cir. 1979). A defendant's
confidence in his counsel is critical because, notwithstanding a defendant's entitlement to
determine the type of defense offered in his case, counsel makes many strategic
determinations that invariably impact the outcome of a trial. Faretta v. California, 422
U.S. 806, 820 (1975).
The improper denial of a defendant's right to counsel of choice cannot be harmless
11

259^ 968 (1Q8A); Unitpd States v. Ttanksn^ 779
F.2d 956, 960 (3^ Cir. 1986). Hie right to counsel of choice "is either respected or denied;
its deprivation cannot be harmless.” Id. at 960 (quoting McKaskle v. Wiggins, 465 U.S.
168, 177 n. 8 (1984)). If a defendant is indigent he has the right to court appointed
counsel. Gideon v. Wamwright, 372 U.S. 335, 83 S.Ct. 792, 9 L.Ed.2d 799 (1963); See
also La. Const. Article 1, Section 13.
In applying the above principles to this case, Judge Daniel's actions deprived Mr.
Joseph, an indigent, of the right to either counsel of his choice or qualified appointed
counsel. Judge Daniel compelled Elliot Joseph to accept a private attorney who was not
his counsel of choice, in whom he had little confidence and who had limited experience3
in order to defeat the necessity of appointing capital-qualified counsel. The judge's
actions likewise compelled counsel to remain on the case even though he stated he had
not been paid for his services. The Supreme Court in State v. Citizen, 04-1841 (La.
4/1/05), 898 So .2d 325, recognized that pro bono representation, when reasonably
imposed, is a professional obligation burdening the privilege of practicing law, but also
stated that any assignment of counsel from the private bar to defend an indigent
defendant must provide reimbursement. The Court however also observed that “budget
exigencies cannot serve for the oppressive and abusive extension of attorneys'
professional responsibilities and that this court ... has the power to take corrective

2It is also noted that until October 2004, Mr. Martin, even without regard to his lack of capitalqualification could not even been appointed in this case pursuant to La. C.Cr.F! Art, 512.
The ineffectiveness of trial counsel is reserved for post-conviction relief where evidence can he
introduced regarding the impact cf counsel's errors and omissions.

12

ere provided with their constitutional and
statutory rights.”
In the briefs before the United States Supreme Court in United States v. GonmlezLopez, the following is noted:
“The framers of the Sixth Amendment understood 'the inestimable worth
of free choice.' Fare tin v. California, 422 U.S. 806, 834 (1975). Among
other things, they were ¥/ell aware that in the notorious 1735 trial of John
Peter Zenger, Zenger's original attorneys were disbarred fay the court for
vigorotis advocacy, see United States v, 'Barnett, 378 U.S, 881, 715
(1964), and that the court had initially tried to force him to trial with an
inferior lawyer. See James Alexander, A Bnef Narrative of the Case and
Trial of John Peter Zenger, Printer of the New York Weekly Journal 21
(Stanley N. Katz ed. 1972). . . ”
United States v. Gonzalez-Lopez, 2005 U.S. Briefs 352, 15 (U.S. S.Gt. Briefs 2006)
(Brief of Respondent).
This is not the case where an indigent requested a particular counsel. While Mr.
Joseph indicated he would accept Mr. Joiner, already on the case as counsel, he made no
other specific request. Compare State v. Scott, 2004-1312 (La. 1/19/06), 921 So.2d 904.
Nor did Mr. Joseph make the request at the last minute. Even though his last
request to remove Mr. Martin was made on the second day of trial, he had been trying for
over a year and a half to either remove Mr. Martin or be allowed to represent himself.
Judge Daniel's interference in Mr. Joseph's right to counsel should constitute
structural error warranting a new trial.
Denial of Mr. Joseph's Requests lb Represent Himself
Mr Joseph was frustrated. His attempts to remove the attorney his family had
13

■asked to represent him, but bad not paid, were met with dpnials hyiurigp Danipl. ir> tire
alternative, Mr. Joseph asked to represent himself. Judge Daniel found Mr. Joseph's
request to act as his own counsel equivocal and denied him that relief as well.5
The United States Supreme Court, in Faretta v. California, 422 U.S. 806, 95 S.Ct.
2525, 45 L.Ed.2d 562 (1975) determined that in a criminal trial a defendant has an
independent constitutional right to defend himself without counsel when he voluntarily
and intelligently elects to do so. The Court's view was shaped by the historical view that
the Sixth Amendment right to the assistance of counsel implicitly embodies a correlative
right to dispense with a lawyer's help and that the Constitution does not “force a lawyer
upon a defendant.” Faretta, supra, at 814-815. The Court reasoned that the right to
counsel, if anything, was intended to aid a willing defendant and should not be used as
“an organ of the State interposed between an unwilling defendant and his right to defend
himself properly.” Id. at 820.
Before an accused can choose the right to defend himself, he must make a
knowing and intelligent waiver that shows he appreciates the possible consequences of
mishandling the core functions that lawyers are more competent to perform. United
States v. Kimmel, 672 F.2d 720 (9* Or. 1982).
“The determination of whether there has been an intelligent waiver of right to
counsel must depend, in each case, upon the particular facts and circumstances

3A motion to supplement the record with the transcripts of the hearings on Mr. Joseph's request to
represent himself and the subsequent withdrawal of the request is being file contemporaneously with this
brief. Within the motion., counsel has also asked to be able to file a supplemental brief fully addressing
this Assignment of Eircr.
14

vl

■surrounding that case^ including rhp background, experience, and conduct of the
accused” Johnson v. Zerhst, 304 U.S. 458, 464, 58 S.Ct. 1019, 1023, 82 L.Ed. 1461
(1938); State v. Haiper, 381 So.2d 468 (La. 1980).
Although a defendant need not himself have the skill and experience of a lawyer in
order competently and intelligently to choose self-representation he should be made
aware of the dangers and disadvantages of self-representation st that the records will
establish that “he knows what he is doing and his choice is made with eyes open.”
Before a trial judge can allow a defendant to represent himself, he must determine
whether defendant's waiver of counsel is intelligent and voluntarily made, and whether
his assertion of his right to represent himself is clear and unequivocal. Excerpted from
State v. Dupre, 500 So.2d 873 (La. App. 1st Cir. 1986), writ denied, 505 So.2d 55 (La.
1987).
At the hearing on December 18, 2003, Judge Daniel stated that he had gone over
with Mr. Joseph at length concerning his wish to represent himself at the last court
appearance. These two transcripts are missing from the record and are being requested.
Nevertheless, after the judge told Mr. Joseph that he needed an unequivocal request from
Mr. Joseph to represent himself, Mr. Joseph gave him one and fired both counsel. (R.pp.
610-620). Judge Daniel refused to consider his waiver and went on to set motions with
counsel.
Judge Daniel also ignored the request made on the second day of dial.
Mr. Joseph is literate. He filed several pleadings during the trial that showed
15

■comprehension-of-the iegaLsystem., In H g p Hanipl akn had rhp nptinn nf allowing Mr.
Joseph the right to represent himself with legal assistance and “backup” counsel.
Rather. Judge Daniel ramrodded the case so that Mr. Joseph was denied his right to
counsel of his choice, denied the right to capital qualified indigent counsel and denied the
right to represent himself.
ASSIGNMENT OF ERROR #2
The trial judge erred in denying the motion to suppress.
Sergeant Vick asked Latonya Joseph to call Elliot Joseph and tell him to come to
the police station. (R.p. 424). By the time, Sergeant Vick had interviewed the emergency
room physician, Dr. Beasley who told him that the injuries to Kendrick were the result of
child abuse. (R.pp. 458-459, 482-484). He had personally seen the injuries to Kendrick,
including the bruising on the buttocks and legs and the sections of his legs that appeared
as though the skin had raptured. (R.pp. 458-459). He had spoken to Monica Johnson,
Kendrick's mother who told him that she had sent Kendrick to visit his father, Elliot
Joseph. (R.p. 460). He had spoken with Latonya Joseph, Elliot's wife, who had told him
that Elliot had used a belt and once a hairbrush when Kendrick had soiled himself. (R.p.
461). He had also learned that Elliot Joseph, not Latonya, was home with Kendrick when
Kendrick went into the seizure and that he had left the house before EMS had arrived.
(R.pp. 462-463). By 4:05 p.m. Sergeant Vick had taken a taped statement from Mrs.
Joseph and from her had obtained consent to seei'ch the Joseph residence for the belt and
hairbrush used to spank Kendrick. The statement- Sergeant Vick had obtained from Andy16

■Lewis likewise confirm,erijhfit El lint Inspph had at least whipped Kendrick' even if he
had not been responsible for the other injuries. (R.p. 481).
Yet, Seigeant Vick assured Latonya that he “had no reasons or logic to arrest
anyone” when he asked her to get Elliot to come to the police station. (R.p. 465). And the
Sergeant insisted that Elliot was free to leave when he entered the interview room, despite
what Sergeant Vick had seen and what he had been told. (R.p. 470). He denied that he
had any information, even though the record disputes it, that it was Elliot who had
whipped Kendrick, causing the marks and bruising that the physician had classified as
abuse, although admitting he could have obtained an arrest warrant based on the
information he had. (R.pp. 482,491). Seigeant Vick also denied that he handcuffed Elliot
prior to placing him formally under arrest at the conclusion of the statement. The social
workers could not remember seeing Elliot's hands, but noticed no other restraint. Elliot
testified he was handcuffed in the interview room. There are sounds on the first taped
statement, when Elliot is emphasizing facts, that may be handcuff noises.
Whether a person has been taken into custody, detained or deprived of his freedom
of action in a significant way must be decided by an objective test. Any formulation
making the need for Miranda warnings depend upon how each individual being
questioned perceived his situation would require a prescience neither the police nor any
one else possesses. On the other hand, a standard hinging on the inner intentions of the
police would fail to recognize Miranda's concern with the coercive effect of the
“atmosphere” from the point of view of the person being questioned.
17

A-request—to-appear at t-police station-,may—easily rany an implirstinn nf
obligation, while the appearance itself, unless clearly stated to be voluntary, may be an
awesome experience for ordinaiy citizen. Excerpted from State v. Merme, 380 So.2d 14
(La. 1980), citations omitted.
Hie circumstances in this case, as in Merme, supra, dictate a finding that even
without any physical restraint or express declaration that he was under arrest Elliot
Joseph necessarily and reasonably must have understood that he was under compulsion to
remain and submit to questioning.
Despite Sergeant Vick's assertions to contrary, it does appear that Elliot Joseph
was in custody from the time he entered the police station. He was told to come to the
station, isolated when he arrived, and based upon the information that Sergeant Vick had
at the time, subject to arrest.
As the Court noted in Menne, supra, “The practical significance of the safeguards
provided for custodial.or detentional interrogations would be greatly undermined if it
were open to the police to contend that none of those safeguards applied since the
accused had appeared and remained at the police station voluntarily, although the accused
reasonably may have thought that he was under constraint.”
Pursuant to La. ELS. 15:451 and La. C.Cr.P. Art. 703(D), before a confession or an
inculpatory statement can be introduced into evidence, the state must affirmatively prove
that it is not made under the influence of fear, duress, intimidation, menaces, threats,
inducements or promises; the state must also establish that an accused who makes a
18

statement-during custodial interrogation is-ffost-advfcpri nf hk Miranda rights. State v.
Turner. 37162 (La. App. 2nd Gir. 10/29/03), 859 So.2d 911, writ denied, 2003-3400 (La.
3/26/04), 871 So .2d 347.
The Miranda warnings in this case were not given until after Elliot had been
through pre-interview questioning for about approximately eight minutes with Sergeant
Vick and the two social workers and then, on tape, without Mimnda warnings, had
denied being at the house when Kendrick was injured. See S-3, Time of interview 5:35
p.m., D-2 and recorded statement, Mimnda 'warnings given approximately 5:43 p.m. The
second statement admitting that he had pushed Kendrick who had fallen into a dresser
was given the following night, after Kendrick had died.
Under the circumstances similar to those in this case, the Supreme Court has found
that subsequent statements after a mid-statement Mimnda warning is given are
inadmissible. See Missouri v. Seibert, 159 L.Ed.2d 643, 124 S.Ct. 2601 (2004). The
Court recognized that using the “question-first” technique, i.e., not to give warnings until
a confession or inoiminating statement is obtained, will result in warnings that will be
ineffective in preparing the suspect for successive interrogations, close in time and
similar in content. It is noted in this case, buttressing the argument that Sergeant Vick
intentionally used this “technique,” to secure a statement is the fact that no time was
taken to secure a written waiver of rights. Compare the waiver for the second statement.
Under the theory enunciated in the above case, both Elliot Joseph's statements
should have been suppressed.
19

The trial judge erred in failing to obtain a joint waiver of
jury sequestration.
There is no joint motion in the record stating that it is the agreement of the state
and the defense that the jury not be sequestered. Judge Daniel told the first panel of

potential jurors on the second day of jury selection that the lawyers had agreed that they
would not be sequestered during jury selection 4 and that there was "also a chance1' that
they may not be sequestered during the evidence phase of the trial. He additionally
warned them that he could change the sequestration decision any time if he deemed it
appropriate. (R.pp. 666-668). The judge reiterated the implied warning to the next panel
telling them that "... You will not be sequestered during jmy selection. Also, as of this
time, the attorneys have told me they do not expect to request sequestration during the
evidence phase of the trial ... But that could change at any moment, or the court for any
reason whatsoever, I could change my mind and order a sequestration at any time in the
case.” (R.pp. 790-791).
However, while the judge stated that the attorneys had agreed on the issue of
sequestration, at least during the selection process, there never appears of the record any
affirmative waiver by the defense of the right to a sequestered jmy, either during the jury
selection or trial. There is no joint motion, no minute entry and no colloquy with Mr.

'"'While trial counsel had asked for the transcripts of all pretrial and trial proceedings, the motion for the
dap of voir dire where there was no objection or overruling of any defense motion was denied by Judge
Daniel. (R.p. 374). Accordingly, since the minutes of the first day of voir dire reflect no objections and no
rulings, the transcript for that portion of the jury' selection was not included in the appellate record. It
cannot be determined therefore what was said to the first jury panel on die issue of sequestration.
20

-Joseph

of-bis

coimsel concerning tire issue nf sequestration in the transcript. Compare

State v. Potter, 99-1722 (La. App. 3rd Cir. 5/3/00), 761 So.2d 115. Moreover, the judge's
comments appear to reflect his belief that the decision on the issue of sequestration was
his to make as opposed to counsels'.
La.C .Cr.P. Article 791 states that:
A.

A jury is sequestered by being kept together in the
charge of an officer of the court so as to be seduded
from outside communication, except as permitted by
R.S. 18:1307.2.

B.

In capital cases, after each juror, is sworn he shall be
sequestered, _ unless the. _ state _ _ and _ defense. _ have
jointly moved that the jury not be sequestered.

C.

In noncapital cases, the jury shall be sequestered after
the court's charge and may be sequestered at any time
upon order of the court.
[e?nphosts added]

There were two versions of La.C .Cr.P. Article 791 B passed in 1995. The first,
Act 1172,5 mandate sequestration from the jury charge during the guilt phase to the
verdict during the penalty phase and gave authority to the trial judge to alter the
sequestration order at any time. The second, Act 1277, is the version appearing above.
As the later expression of the Legislative will, Act 1277 takes precedence. The act

^Ihe version of C.Cr.P. Article 791 arguably used by Judge Daniel in this case was that of the superseded
Act 1172 which read as follows:
Art. 791. Sequestration of jurors and jury
B. (1) In capital cases, after each juror is sworn he shall be sequestered, unless the court grants a
j aim state and defense motion that the jmy not be sequestered.
(2) When the court grants the state and defense motions as provided for in Subparagraph {1) of
this Paragraph, the jury shall be sequestered after the court's charge until the completion of the
sentencing hearing. The juiy may be sequestered at any time upon order of the court
21

■does .not mandate -sequestration froguth&-jmy-rharge to the coprlnsinn nf the ppnslry
phase as Judge Daniel stated following the rendition of the verdict. (R.p. 1698). It also
removed the judge’s specific authority to alter the sequestration order agreed to in a
capital case.
The article makes it dear that the default mode of Hying a capital case is with a
sequestered jury. Elliot Joseph had a right to have the jury sequestered from outside
influences in this highly charged and emotional case. There is nothing affirmative in the
record to show that either he or his counsel knowingly waived the right by filing a joint
motion with the prosecutor.
The record shows that this jury had problem deliberating together, with strong
beliefs on either side of the issue of guilt. See letters from the jury during deliberation, it
was unable to recess for the evening to its sequestered lodgings following instruction or
at a reasonable hour and retain to deliberate fresh the following morning. Rather, the jury,
with no place to go, deliberated for over nine horns, until almost 2:00 a.m. and then were
compelled to make sequestration arrangements. The uninterrupted lengthy deliberation
arguably had the effect of causing those voters to relinquish their beliefs just to be able to
end the deliberation process, to the prejudice of Elliot Joseph.
SUMMARY
At the investigation stage, Mr. Joseph ’was denied his Fifth Amendment right when
Detective Tick questioned first end gave Miranda warnings only after an incriminating
response was obtained, a practice recognized and forbidden by the United States Supreme
22

Court in Missouri-v^Seibei% supra■
At the pretrial and trial stage, Mr. Joseph was denied his Sixth Amendment right to
counsel when the trial judge denied him the right to counsel of his choice, denied him the
right to qualified indigent counsel despite his indigency and of his right to represent
himself.
The errors in this case are not harmless ones. The interference with the right to
counsel is a structural defect that mandates a new trial. Mr. Joseph should be granted one.
POST CONVICTION RELIEFCLAIMS
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #1
On the second day of trial defendant was told by counsel that the A.D.A. wanted the
Defendant to take a plea of life in prison. Defendant then told counsel “John Martin” that
he was fired at that time, Author Joiner who worked for the Public Defender's Office told
Defendant that he could not represent him without Martin because he was only “second
chair” qualified, Defendant then told. Joiner that he was fired.
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #2
Defendant received a folder with medical records, witnesses' names, and other
exculpatory documents of the Court that the Defendant had asked his counsel for more
than two years before The trial so he could research. It was given to Defendant on the
second day of trial. Defendant did not have time to research, investigate and prepare these
documents for trial, being that the trial had started.
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #3
Counsel failed investigate witnesses that would prove the Defendant's case; Counsel
failed to call his son mother, Monica Johnson, as well as Monica's boyfriend as to what
happened to Defendant's son. For Counsel to not call two other people that was at
Defendant's house at the time Defendant had his son; Counsel did not investigate
Defendant's case because these witnesses were critical.
23

INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #4
Counsel failed to subpoena expert witnesses to rebut “State's” expert witnesses in a
capital case where as the State was seeking death upon the Defendant. Even though
Counsel should have had said expett witnesses. Counsel deprived Defendant the right to a
fair trial.
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #5
Counsel failed to subpoena Jerald Brown, Monica's brother, that was willing to provide
an affidavit and/or take the stand in the defense of Defendant's behalf on knowledge of
abuse towards K.J. In the care of Monica, Monica's mother and Monica's boyfriend.
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #6
Counsel allowed the State to produce Defendant's past conviction to the jury, without
Defendant taking the stand; the counsel did not object to it; and from that point, the trial
wTas unfair and the Defendant's rights v/ere violated and prejudiced Defendant's case.
INEFFECTIVE COUNSEL [VIA] DEFICIENT
UNREASONABLE PERFORMANCES CLAIMS #7
Counsel failed in allowing the State to display gruesome photographs, some of which
were unnecessary, and the size of their display to be shown to the jury without
reservation, Court did not object concerning only about the reaction of Monica, KJ.'s
mother.

24

AilRTTK ABV ARI FSF. OF PISCRE/nON CLAIM #1

Tial court denied Defendant's Sixth Amendment right to counsel of his choice; denied
Defendant's right to have qualified counsel despite his indigene}' compelled Defendant to
go to trial with unqualified counsel rendering the trial non-impartial as well as invalid.
ARBITRARY ABUSE OF DISCRETION CLAIM #2
Thai Court erred in allowing the State counsel to play illegally obtained tapes to the jmy
made by the Defendant as well as Defendant's brother-in-law.
ARBITRARY ABUSE OF DISCRETION CLAIM #3
Trial Court erred by failing to sequester the jury in a capital case where as the State
counsel was seeMng the death penalty upon the Defendant. Tial was not a fair one.
ARBITRARY ABUSE OF DISCRETION CLAIM #4
Trial court erred by not letting the jury take there time to deliberate. Trial court told the
jury to come up with a verdict or he will have to sequester them and put them in a hotel,
forcing them to find Defendant guilty.

25

ARGiJMEMIJM-CIAIM #1
On tiie second day of trial when counsel came to the Defendant to say that the
Assistant District Attorney said that if he (Defendant) took a plea of “Life5' that he would
not have to worry about the death penalty. That was when the Defendant knew that his
counsel was not willing to assist him to the best of their ability. The Defendant could not
put his life in the hands of someone he could not trust that is why he told them that they
were fired and that they could not go on with the trial.
The Sixth Amendment guarantees a defendant reasonably effective assistance.
See: Cuykrv. Sullivan, 466 U.S. 335, 344, 100 S.Ct. 1708, 1716 (1380).
ARGUMENT IN CLAIM #2
Defendant received his “discovery” on the same second day of trial. Defendant
had ask for these documents for over two years before trial. In these documents it shows
that counsels did not investigate the witnesses that Defendant had told counsels that were
there at his (Defendant’s) house when Defendant’s son, K.J., came and was already
abused.
TKal counsel’s failure to investigate and prepare for trial amounted to ineffective
assistance. By and through Ramseyet v. Wood, 64 F.3d 1432 (9th Cir. 1995).
Tlial counsel's failure to learn the facts and familiarize themselves with this
exculpatory evidence constitutes ineffective assistance and renders the verdict unworthy
of confidence. Uriel counsel’s failure to do basic legal research. To review testimony of
key witnesses, and to be familiar with readily available documents necessary to
26

■uaderstaadingjiis client's rase, constitutes ip effective assistance of counsel. Hyman v.
Aiken, 824 F.2d 1405 (4th Cir. 1987).
ARGUMENT IN CLAIM #3
Counsel failed to investigate witnesses that would prove that the Defendant got his
son already abused and that Monica was not telling the true story, Monica's own brother
told the Defendant that he saw “Monica abused her son (IC.J.)”. Counsel did not
investigate Leco Cole- the men that had been in jail for abusing the Defendant's son
(K.J.). Ilad counsel did investigate Leco, counsel would have found out that when the
Defendant pick-up his son that he was there. That he was around his son and that he did
still live there and would always watch (K J.) and that Monica was lying to the Courts.
Monica was protecting someone that she cared about more than her own son.
On cross-examination, Monica admitted that she was not watching Leco, her
boyfriend, and when she went to work during December 2000, the time Defendant picked
up his son (KJ.), contradicting her testimony to the contrary. (R.pp. 1207, 1212). It
shows that she was protecting herself and/or someone else. Had counsel subpoenaed
Monica's mother (Lucille Johnson), the Court would have found out that “Lucille” in the
past had sexually molester the Defendant's daughter (Kayla) when Defendant and Kayla
went back over and told Monica what she (Kayla) had told her Daddy (the Defendant),
Monica told Defendant that Kayla was lying. She did not want to call 911 and/or go to
the hospital. Whereas, the Defendant did call 311 and when they said it was a child
protection matter, Defendant then asked for that number and called; told them everything
27

—names, addfesses-aad.whathad happened .tn (Defendant's) daughter. Had counsel called
Kayla to the stand, counsel would have found this to be true. This was indeed
deficient/unreasonable performance by counsel of the Defendant.
Deficient Performance:
Reasonable counsel subjecting the State's case to the adversarial testing process
would have conducted effective pretrial investigation to discover exculpatory evidence
favorable to his client, would have filed proper discovery motions, conducted effective
pre-trial interviews, and obtained the documents and witnesses needed to effectively
present his client and advocate his cause. Reasonable counsel is one who ensures that his
client receives a fair trial and the guarantee of Due Process of Law articulated in the Fifth
and Fourteenth Amendment to the United States Constitution and Article I § 2, 13 and 16
of the Louisiana Constitution of 1974; Moore v. Johnson, 194 F.3d 586 (5* Cir 1999).
Whereas, in this case, counsel's performance prejudiced the Defendant by
depriving him of a fair trial, a trial that the results are reliable. Because of counsel's
unprofessional errors, the outcome would have been different. This Court should grant
Defendant a fair trial.
ARGUMENT IN CLAIM #4
Counsel failed by not subpoenaing “Forensic Experts” to rebut counsel for the
State's forensic expert. Had counsel subpoenaed the same expert, the jury would have had
a chance to hear both sides and see which ones that they could count on, not just one. If
Defendant had these expert's other than it would show that the Defendant had not been
28

n^p rn fihii<cp hk ^nn Whprpns, Tip dir! ariraif that hp spankpri hk kirk whpn they wptp

doing wrong. But never abused any child. Counsel should have had these expert's to
show the time frame of said injuries. These injuries (the State expert's) say had to happen
no more than 5 to 10 days. Whose to say that they were right? The trial judge? The State's
counsels? The defense counsels? None of which are experts in that field. That being the
case, counsel deprived Defendant the right to a fair trial, whereas, this Court should
grant the Defendant one. See Trial Transcript when asked to said expert: Did he use his
blue light that “forensic” use? To see if the witnesses and/or the defendant was telling the
truth about he (K J.) hit his head on the dresser when he stated he didn't feel it was
necessary. Had counsel subpoenaed said expert for the Defendant, it would have shown
that it was necessary and the outcome would have been different.
ARGUMENT IN CLAIM #5
Counsel failed by not calling Monica's brother. Defendant was at the Parish Prison
on Line Q 3-4 in 2004 and met a Jerald Brown which is Monica's father son. He ask the
Defendant what was he in jail for. He did not know nothing about the Defendant being in
jail for his own son and/or accused. After he was told Brown then told the Defendant that
he even witnesses abuse by Monica and her mother and that he witnessed and/or knew7
that they were the ones that should be in jail for abusing (that Baby (K J.)) - his words.
Right then, Defendant asked him if he would tell (the Defendant counsels) John Martin
and Author Joiner what he told to the Defendant. He (Jerald Brown) stated: I will dG that
and do an affidavit. This was because he knew that the Defendant would not hurt a child
29

—his or nobody else child _
Counsel's performance prejudiced the Defendant by depriving him a fair trial, had
counsel subpoenaed this witness, the outcome would have been different. This Court
should grant the Defendant a new and fair trial.
ARGUMENT IN CLAIM #6
Counsel did not object to State counsel (Wick Cooper) using Defendant's past
conviction (possession of cocaine, possession of marijuana, and even his juvenile charge,
#63.334 illegal discharge of a weapon) was irrelevant to the jury unless the the Defendant
took the stand. Counsel told Defendant not to take the stand and he would make sure that
the State counsel would not bring up his past conviction. Counsel deprived the Defendant
rights to fair trial by allowing the State (Wick Cooper) to do what he said that would not
happen. If counsel would have objected the outcome would have been different. This
Court should grant a new trial. See: Records of Trial.
ARGUMENT IN CLAIM #7
Counsel failed to object to horribly disfigured photographs of child that was
shown to the jury. Both via the small photographs introduced into evidence and on a 6' x
6' screen in the courtroom, Counsel objected only about the reaction of Monica who
remained in the courtroom throughout the trial. Prosecutor displayed all photos in large
format throughout the trial. Photos S-5 was the only one that counsel objected to. See
trie! Records pp. 1178-1173. Both the bum photographs and the autopsy photos were
displayed on the screen during the testimony of Corporal Pamela Young, Dr. Beasley and
30

the

Coroner.

See. THal

Records—pp.

42,

45,

4611

Cmm^l

inpffprrivp

deficient/imreasonable performance was further cause by failing to object both the
repetitive showing of the gruesome photographs. Some of which were unnecessaiy, and
the size of their display, without reservation. These photos was so graphic that one juror
had to ask to be excused to compose herself even after the small photographs displaying
the injuries were passed.
Errors that indicates ignorance of basic procedures as shown herein, constitutes
ineffective assistance. Veto v. Estell, 708 F.2d 954, 963-964 (5,hGir. 1983), Had counsel
at least objected, he would have preserved these errors for appeal. But he failed to do so.
Veto v. Estell, at 962; Washington v. Estell, 648 F.2d 276 (5th Or. 1981); Lyons v.
McCotier, 770 F.2d 529 (5th Cir. 1985); and Gray v. Lyons, 6 F.3d 265 (5* Or. 1992). The
mere presence of counsel does not satisfy the constitutional guarantee of counsel. As the
Supreme Court has often stated, an accused is entitled to representation by an attorney,
whether retained or appointed, who plays the role necessary to ensure that the trial is fair.
According to Strickland, a defendant must show that counsel's performance was
deficient within the range of competence required of attorney's in criminal cases.
Defendant must next show that this deficient performance prejudiced his defense by
depriving him of a fair trial.
Where as in this case, Defendant has shown that because of counsel's
unprofessional errors the outcome would have been different. Stiickland v. Washington,
466 U.S. 668, 685,104 S.Ct. 2052, 2064,80 L.Ed.2d 674 (1984).
31

ARBITRARY ABUSE AUGUMENXAS TO Cl AIM m
Trial court interfered with the Defendant's Sixth Amendment right to counsel. He
denied Defendant the right to counsel of his choice. Trial court denied the Defendant the
right to have qualified appointed counsel, compelling Defendant to go to trial with
unqualified counsel. When Defendant first appeared in Court following his indictment, he
declared himself to be indigent. After the trial court agreed, trial counsel (Joiner) asked to
be put on the case. Trial court then appointed the Officer of the Public Defender to
represent the Defendant. (R.pp. 1-2). However, despite the fact that Defendant was
charged with a capital offense and despite the fact that it was anticipated that the State
would seek the Death Penalty. Defendant was appointed a single counsel who admitted
during the proceedings that he was qualified only to be “second chair” in a capital case.
(R.pp. 70, 657). Defendant was never appointed a “first chair” capital qualified counsel.
On June 7, 2001, a Mr. John Martin, an attorney for less than rwo (2) years at the
time (admitted to practice 10/1999), filed a Motion to Enroll as Co-counsel with Mr.
Joiner as second chair. (R.p. 78). Had Defendant been able to have capital qualified
counsel and was not compelled to go to trial with unqualified counsel, the outcome would
have been different.
ARBITRARY ABUSE ARGUMENT AS TO CLAIM #2
Trial court erred in allowing the State's counsel to use illegally obtain tapes made
by the Defendant and/or Defendant's brother-in-law. Before Defendant came to the police
station, Sgt. Vick had an interview with Defendant's wife (Lalbnya Joseph) and wife's
32

-brother (Andy LewJs^-witbout-aii.attoa3&y.aad/pHiis mothpr. At rhp time nf the interview,
Andy was only 14 years old and had to have his mother or an attorney or someone that
knew the law, present with him. Sergeant Willie Vick had obtained a statement from
Andy “illegally” and confirmed that the Defendant had at least whipped K J., even if he
had not been responsible for the injuries. (R.p. 481). Sergeant Vick assured the
Defendant's wife (LaTonya) that he “had no reason or logic to arrest anyone” when he
asked to get the Defendant to come to the police station. (R.p. 465) and Vick insisted that
the Defendant was free to leave when he entered the interview room. Despite what Vick
had seen and what he had been told. (R.p. 470). He denied that he had any information,
even though the record disputes it. Sergeant Vick denied that he handcuffed the
Defendant prior to placing him formally under arrest at the conclusion of the taped
statement. Defendant testified that he was handcuffed as soon as he got to the police
station. On the first taped statement, there are sounds when Defendant is emphasizing
facts that is handcuffed noises.
ESCOBEDO RULE
Under this rule, where police investigation begins to focus on a particular suspect,
the suspect is in custody, the suspect requests for counsel is denied, and the police have
not warned him of his rights to have counsel and to remain silent. The accused will be
considered to have been denied assistance of counsel and “no statement” elicited during

such interrogation may be used in a criminal trial.
Spontaneous and voluntary statement made while the Defendant is in custody and
33

not fiiven-as a result of police-iateiTOgation or rnrnpplling inflnpnre and msr!mi^.sihlp as
evidence even when made without the Miranda warning. State v. Robinson, 384 So .2d
332 (La. 1980).
In the above case, trial court should have not allowed these tapes to been played in
the eyes and/ears of the jury, had the trial court suppressed the illegally obtained tapes,
the outcome of the trial would have been different.
In State v. Collier, supra, at 500. (384 U.S. 43G, 444 (1966)), the Court held that
unless the Defendant was informed of his Fifth Amendment right before questioning, any
pre-trial statements elicited from the defendant during custodial interrogation were
inadmissible at nial.
ARBITRARY ABUSE ARGUMENT AS TO CLAIM #3
Tial court erred in failing to obtain a joint waiver of jury sequestration. There is
no joint motion in the record stating that it is the agreement of the State and/or the
Defense that the jury not be sequestered. Trial court told the first panel of potential jurors
on the second day of jury selection that the lawyers had agreed that they would not be
sequestered during jury selection and that there was “also a chance” that they weie not
sequestered during the evidence phase of the trial. (R.pp. 66G-6G8). TKal court reiterated
the implied warning to the next panel telling them that “...You will not be sequestered
during jury selection. Also, as of this time, the attorney's have told me they do not expect
to request sequestration during the evidence phase of the trial... but that could change at
any moment, or the court for any reason whatsoever, I could change my mind and order
34

■sequestration at any-timp in fbp rasp.” (R.pp. 790-791).
However, while the trial court stated that the attorneys had agreed on the issue of
sequestration, at least during the selection process, there never appears of the record any
affirmative waiver by the Defense of the right to a sequestered jury, either during the jury
selection or trial. There is no joint motion, no minute entry and no colloquy with the
Defendant and/or his counsel concerning the issue of sequestration in the transcript. Had
trial court sequestered the jury in this capital case, the outcome would have been different
and the Defendant would have had a fair trial.
ARBITRARY ABUSE ARGUMENT AS TO CLAIM #4
Trial court erred by not letting the jury take there time to deliberate. Trial court
told the jury to come up with a verdict or he will have to sequester them and put them in a
hotel. The trial court force the juiy to find the Defendant guilty.
In:
Code^plJiidicMCouduSi
CANON-2
READS: A judge shall avoid impropriety and appearance of impropriety in all
activities.
A.
A judge shall respect and comply with the law and shall act at all time
in a maimer that promotes public confidence in the integrity and impartiality
of the judiciary.
CANQN-3
A judge shall perform the duties of office impartially and diligently.
A.

Adjudicative Responsibilities.
35

A judge shall be faithful to the law and maintain
professional competence in it7~A judge be unswayed by
partisan interests, public clamor, or fear of criticism.
(2)
A judge shall maintain order and decorum in judicial
proceedings.
(3)
A judge shall be patient, dignified, and courteous to
litigants, jurors, witnesses, lawyers, and others with whom the
judge deals in an official capacity, and should require similar
conduct of lawyers, and of staff, court officials, and others
subject to the judge's direction and control,
(4)
A judge shall perform judicial duties without bias or
prejudice. A judge shall not in the performance of judicial
duties, by words or conduct manifest bias or prejudice, and
shall not permit staff, court officials or others subject to the
judge's direction and control, to do so.
(5)
A judge shall require lawyers in proceeding before the
judge to refrain from manifesting, by words or conduct, bias
or prejudice against parties, witnesses, counsel or others.
Tidal court erred by not declaring a mistrial when the jury foreman was seen
upstairs on the 10th floor smoking around Defendant's family. That same juror after they
found Defendant guilty in the guilt phase had to (his words) “persuade jurors to find the
Defendant guilty.” After that had happened, the trial court still did not sequester the other
jurors. See: Trial Record.
This being the case, the tidal court did not follow the Rules of the Court (Code of
Judicial Conduct) and this Court should gi ant the Defendant a new and fair trial.
SUMMARY
At the police station during the investigation stage, Defendant was denied his Fifth
Amendment right when he was questioned first and gave Miranda warnings only after, a
practice recognized and forbidden by the United States Supreme Court in Missouri v.
36

Seibert, supra
At the pre-trial and trial stage, Defendant was denied his Sixth Amendment right
to counsel when trial court denied him the light to counsel of choice; and denied him the
right to qualified counsel.
The errors in this case are not harmless ones. The structural mandates that it is a
defect and Defendant should be granted a new and fair trial.
CONCLUSION
Petitioner has exhausted all state court remedies, and now seeks long overdue
relief from this Honorable Court. 28 U.S.C. § 2254 provides in pertinent part:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the judgment of a State
court only on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.
For the foregoing reasons, Petitioner Elliot Joseph respectfully requests that this
Honorable Court grant consideration to his claims. He was wrongfully convicted of First
Degree Murder, in violation of La. R.S. 14:30, and sentenced to Life imprisonment. 28
U.S.C. § 2254 further provides in pertinent part:
(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted wilh
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the daim-(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, dearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
37

■of the facts in light of the evidence presented in the State court proceeding.
Petitioner herein submits claims to this Honorable Court based on egregious violations of
his constitutional rights, and thus requests the granting of this petition under 28 U.S.C. §
2254(d)(1) and (2). Relief is specifically requested to vacate his conviction and sentence
and order him released from custody. Petitioner humbly beseeches this Honorable Court
for long-overdue consideration of the constitutional violations raised herein.
WHEREFORE, Petitioner prays that this Honorable Court grant his Petitionfor
Writ of Habeas Corpus and reverse the decisions of the Louisiana Supreme Court, the
Louisiana First Circuit Court of Appeal, and the trial court, and grant relief to which he
may be entitled. All claims alleged herein are based on clear violations of Petitioner’s
constitutional rights and Petitioner requests that this Honorable Court consider this
petition pursuant to the mandate of 28 U.S.C. § 2254.
Respectfully submitted this

day of

, 2021.

mTiot. Joseph #£28928 -Pro Se
Main Prison - Ash 4
Louisiana State Prison
Angola, Louisiana 70712

38

